Affidavit of Service
STATE OF NEW YORK)
COUNTY OF ONONDAGA)ss.:

I, Rebecca Sklaney, duly depose and say, I served an original copy of the
Supplement for Petition of Writ of Certiorari for the Defendant/Petitioner, Howard

30

Griffith, for the above entitled proceeding, dated:

, 2020,

and ten copies of the same to the Clerk of the Supreme Court of the United States,
with an exact copy of the same to: William J. Fitzpatrick, Esq., District Attorney of
the State of New York/County of Onondaga, being the only known parties of the
said proceeding, via certified mail, by depositing on the 3 ^ day of

k)<wew\Wr

, 2020, the original petition and exact copies of the same in a post

office box of the City of Syracuse, NY, to be handled with care in Post Offices in
the cities of Washington, DC, and Syracuse, NY, to be received at the following
known addresses:
1) Clerk of the United States Supreme Court
1 First Street, N. E., Washington, DC 20543
2) William J. Fitzpatrick, Esq., NYS District Attorney/County of Onondaga
505 South State Street, 4th Floor, Syracuse, NY 13202

Being the last known addresses for these parties, being the only known parties in
these proceedings, that deponent is over 18 years of age, is not a veteran, is not a
party in this proceeding, and resides in Syracuse, NY.
ILt La?

0

(L~

Rebecca Sklaney
Sworn to before me thjg^Q day of U3QJ

, 2020

SHANNON PETIT
,
Notary Public, State of New York
Registration #01PE6386747
Qualified In Oswego County
Commission Expires Jan. 28, 2023

